Nos. 19-251, 19-255
IN THE

Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,

v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

_______________
THOMAS MORE LAW CENTER,
Petitioner,

v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE ATTORNEY GENERAL OF
CALIFORNIA,
Respondent.
On Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit

AMICUS CURIAE BRIEF OF AMERICAN CENTER FOR LAW AND
JUSTICE IN SUPPORT OF PETITIONERS
PROOF OF SERVICE
Jay Alan Sekulow, a member of the Bar of this Court and an attorney for amicus,
pursuant to Rule 29.3, hereby certifies that three copies were served upon all parties
required to be served, by Federal Express from Washington, D.C., to counsel at the
addresses below.
Derek L. Shaffer
Quinn Emanuel Urquhart & Sullivan,
LLP
1300 I Street NW, Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@quinnemanuel.com
Counsel for Petitioners

John J. Bursch
Alliance Defending Freedom
440 First Street, NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org

Aimee Athena Feinberg
California Department of Justice
1300 I Street
Sacramento, CA 95814
916-210-6003
Aimee.Feinberg@doj.ca.gov
Counsel for Respondent

Jay Alan Sekulow___
Jay Alan Sekulow
American Center for Law and Justice
201 Maryland Ave. NE
Washington, DC 20002
(202)546-8890
March 1, 2021

